            GAO Office of Inspector General
                  Report Summary
Date:      October 2, 2008



Title:     Independent Evaluation of GAO’s Information Security Program and Practices –
           Fiscal Year 2008 (GAO/OIG-09-1)



Summary:   The Office of Inspector General (OIG) performed an independent evaluation of
           GAO’s information security program and practices for fiscal year 2008 as
           prescribed by the Federal Information Security Management Act of 2002
           (FISMA). GAO is not obligated by law to comply with FISMA, but has adopted
           the law’s requirements to strengthen its information security program and
           demonstrate its ongoing commitment to lead by example.
           The OIG issued a sensitive report that found GAO had generally established an
           information security program consistent with the requirements of FISMA and
           guidance issued by the Office of Management and Budget and the National
           Institute of Standards and Technology. However, the OIG identified several
           requirements that were not fully implemented and made recommendations
           accordingly to improve GAO’s information security practices and its Privacy
           Program. GAO management concurred with each of the report’s
           recommendations and is initiating corrective actions.
